              OFFICE OF
       THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION

CONTRACTORS’ REPORTING OF JOBS CREATED OR
   RETAINED USING AMERICAN RECOVERY AND
REINVESTMENT ACT DOLLARS IN FISCAL YEAR 2011

          April 2012   A-15-12-11214




     EVALUATION
       REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      April 3, 2012                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Contractors’ Reporting of Jobs Created or Retained Using American Recovery and
           Reinvestment Act Dollars in Fiscal Year 2011 (A-15-12-11214)


           OBJECTIVE
           Our objective was to verify the number of jobs reported as created or retained by
           contractors who provided the Social Security Administration (SSA) goods and/or
           services funded with American Recovery and Reinvestment Act of 2009 (Recovery Act)
           dollars in Fiscal Year (FY) 2011 for the quarters ended December 31, 2010,
           March 31, 2011, June 30, 2011, and September 30, 2011.

           BACKGROUND
           The Recovery Act was signed into law on February 17, 2009. 1 The Recovery Act was
           designed to save and create jobs as well as cushion the economic downturn and make
           crucial public investments.2 The Recovery Act’s immediate goals were to create new
           jobs and save existing jobs, spur economic activity and invest in long-term growth, and
           foster unprecedented levels of accountability and transparency in Government
           spending. 3

           Recipients of Recovery Act funds directly from a Federal agency are required to submit
           a report to FederalReporting.gov not later than 10 days after the end of each calendar
           quarter. The report must describe the employment impact of work funded by the




           1
               Pub. L. No. 111-5, 123 Stat. 115 (2009).
           2
            Executive Office of The President, Council of Economic Advisers, Estimates of Job Creation from the
           American Recovery and Reinvestment Act of 2009, May 2009.
           3
               http://www.recovery.gov/About/Pages/The_Act.aspx.
Page 2 - The Commissioner


Recovery Act, including an estimate of the number of jobs created and retained by the
prime contractor, in the United States and outlying areas. 4

Office of Management and Budget (OMB) memorandums, the Federal Acquisition
Regulation (FAR), and Frequently Asked Questions (FAQ) at FederalReporting.gov
provide guidance to Federal agencies and contractors for calculating the number of jobs
created and retained. These resources also provide guidance on effectively reviewing
the quality of data submitted by contractors. The guidance is outlined below.

•     OMB Memorandum M-09-21, Implementing Guidance for the Reports on Use of
      Funds Pursuant to the American Recovery and Reinvestment Act of 2009 transmits
      Government-wide guidance for Federal agencies carrying out the reporting
      requirements included in section 1512 of the Recovery Act. Although this
      Memorandum does not apply to Federal contracts, OMB has provided guidance for
      calculating the jobs created or retained by Federal contractors via FAQs at its
      Website. 5 Additionally, relevant guidance for Federal contractors is provided in
      interim FAR clause 52.204-11.

•     FAR 52.204-11, American Recovery and Reinvestment Act - Reporting
      Requirements requires that Federal contractors report an estimate of the jobs
      directly created and retained in the United States and outlying areas. 6 The
      Department of Defense, General Services Administration, and National Aeronautics
      and Space Administration jointly issue the FAR for use by executive agencies in
      acquiring goods and services.

•     Recovery FAQs for Federal Contractors on Reporting - Reporting/Data Element
      FAQs #15 (as of September 30, 2009) gives preliminary guidance to the prime
      Federal contractor to determine the Number of Jobs to report on
      FederalReporting.gov. The FAQs state that jobs should be calculated based on full-
      time equivalent (FTE) positions using cumulative Recovery Act hours worked divided
      by cumulative hours in a full-time schedule. This FAQ was revised on December 18,
      2009 for the quarter ending December 31, 2009 to simplify the calculation
      methodology for reporting number of jobs and can be found at OMB’s Website. 7




4
 48 C.F.R. 52.204-11 (c) through (d)(7). These requirements, among others set forth in 48 C.F.R.
52.204-11, are to be included in all solicitations and contracts funded in whole or in part with Recovery
Act funds, except classified solicitations and contracts. 48 C.F.R. 4.1502. 48 C.F.R. subpart 4.15
implements the recipient reporting requirements set forth in Section 1512(c) of the Recovery Act.
5
    http://www.whitehouse.gov/omb/recovery_faqs_contractors/.
6
    48 C.F.R. § 52.204-11(d)(7)(ii).
7
 http://www.whitehouse.gov/omb/recovery_faqs_contractors/#report15. This FAQ was revised again on
July 2, 2010 to delineate certain criteria for reporting jobs for subcontractors.
Page 3 - The Commissioner


•      OMB Memorandum M-10-08, Updated Guidance on the American Recovery and
       Reinvestment Act - Data Quality, Non-Reporting Recipients, and Reporting of Job
       Estimates (dated December 18, 2009) requires that Federal agencies establish a
       data quality review plan that articulates their data quality review process to, at a
       minimum, focus on significant reporting errors and material omissions, 8 such as
       those related to the Federal amount of the award, Federal award number, recipient
       name, and number of jobs created or retained. The new guidance also imparts
       important simplifications to the manner in which job estimates are calculated and
       reported. The guidance states that recipients will no longer be required to make a
       subjective judgment on whether jobs were created or retained as a result of the
       Recovery Act. OMB states that instead recipients will more easily and objectively
       report on jobs funded with Recovery Act dollars. 9

       OMB M-10-08 also provides guidance on calculating FTEs. The guidance states

           In order to perform the calculation, a recipient will need the total number of hours
           worked by employees in the most recent quarter (the quarter being reported) in
           jobs that meet the definition of a job created or a job retained . . . . The recipient
           will also need the number of hours in a full-time schedule for the quarter. For
           instance, if a full-time schedule is 2,080 hours/year, the number of hours in a full-
           time schedule for a quarter is 520 (2,080 hours/4 quarters = 520). The formula for
           reporting can be represented as:

                   Total Number of Hours Worked and Funded by Recovery Act
                                    Within Reporting Quarter
                                                                                       =    FTE
                                                                        10
                              Quarterly Hours in a Full-Time Schedule

•      OMB Memorandum M-10-34, Updated Guidance on the American Recovery and
       Reinvestment Act (September 24, 2010) clarifies the lists of Known Exclusions from
       Reporting in other OMB guidance. Specifically, Federal contract, not yet invoiced no
       longer represents a valid exclusion from reporting requirements if the FAR clause
       52.204-11 in the contract is dated July 2010. It remains a valid exclusion only if the
       FAR clause 52.204-11 in the contract is dated March 2009. 11




8
    OMB, M-10-08, Part 1 § 3.
9
    OMB, M-10-08, supra, at pp. 1 and 2.
10
     OMB, M-10-08, supra, Part 2 § 5.3 at p. 13.
11
     OMB, M-10-34, Part II: Updated Guidance on Reporting Procedures, Question 1 at p. 4.
Page 4 - The Commissioner


In November 2009, the Government Accountability Office (GAO) issued a report on
Recipient Reported Jobs Data Provide Some Insight into Use of Recovery Act Funding,
but Data Quality and Reporting Issues Need Attention 12 that examined the reporting of
jobs created or retained by Federal agencies. GAO’s analyses of recipient data from
Recovery.gov indicated there was a range of significant reporting and quality issues that
needed to be addressed. Specifically, GAO noted issues in data entry, quality review,
and FTE calculation. GAO noted that FTE calculations were reported inconsistently
even though OMB and Federal agencies provided significant guidance and training.

In July 2010, we issued a report on Contractors’ Reporting of Jobs Created Using
American Recovery and Reinvestment Act Dollars (A-15-10-21096) that recalculated
the number of jobs created. That review determined that of nine contractors who
provided SSA goods and/or services funded with Recovery Act dollars, eight reported
jobs created in a manner inconsistent with OMB guidance because they misinterpreted
the guidance. As a result, we requested SSA consider having contracting officers
continue communicating with Recovery Act contractors emphasizing that jobs created
or retained are to be reported as hours worked and paid for with Recovery Act funds.
During this review, we determined whether the contractors complied with OMB
guidance for FY 2011.

RESULTS OF REVIEW
A total of 17 contractors reported contract performance related to work for SSA on the
FederalReporting.gov Website for the calendar quarters ended December 31, 2010,
March 31, 2011, June 30, 2011, and September 30, 2011. Based on our verification of
the number of jobs reported as created or retained by nine contractors who received
SSA Recovery Act dollars, we determined seven of the nine contractors reported jobs
created or retained in a manner inconsistent with OMB guidance. Contractors’ errors
resulted primarily from their misinterpretation of OMB guidance, such as whether the
contractor should be using hours for the quarter being reported on or cumulating hours
over one or more quarters. Contractors’ errors also resulted from math errors, such as
inadvertently including hours worked in one prior quarter in the next quarter.

In addition, we determined that SSA reviewed contractors’ job creation reports and
verified that SSA’s quality review procedures complied with OMB standards. However,
SSA’s quality reviews were not designed to, and did not, detect the types of errors we
found during our detailed study.




12
 GAO, Recipient Reported Jobs Data Provide Some Insight into Use of Recovery Act Funding, but Data
Quality and Reporting Issues Need Attention, pp. 1,6, and 8-10, November 2009.
Page 5 - The Commissioner


Inconsistent Reporting

To accomplish our objective, we requested and obtained the methodology and
supporting documentation from nine SSA contractors who reported jobs created as of
the quarters ended December 31, 2010, March 31, 2011, June 30, 2011, and
September 30, 2011. We reviewed jobs data for the nine contractors and determined

•   five contractors had incorrectly calculated the number of jobs reported and therefore
    incorrectly reported the number of jobs created or retained,

•   two contractors correctly calculated jobs created or retained but incorrectly reported
    jobs created or retained, and

•   two contractors correctly calculated jobs created or retained and correctly reported
    jobs created or retained.

OMB’s guidance for calculating the Number of Jobs is based on converting full-time,
part-time, or temporary jobs into fractional FTEs. The results of our review are in
Table 1.
        Page 6 - The Commissioner



      Table 1: Contractor’s Reported FTEs and SSA Office of the Inspector General Re-Calculation of FTEs

                       1st Quarter FY 2011      2nd Quarter FY 2011      3rd Quarter FY 2011      4th Quarter FY 2011
                         (Quarter ended           (Quarter ended           (Quarter ended           (Quarter ended
                       December 31, 2010)         March 31, 2011)           June 30, 2011)        September 30, 2011)
Contractor Name
                       Jobs                     Jobs                      Jobs                     Jobs
                                    Re-                       Re-                       Re-                    Re-
                      Created                  Created                   Created                  Created
                                 Calculated                Calculated                Calculated             Calculated
                        on                       on                        on                       on
                                  Amount                    Amount                    Amount                 Amount
                      Website                  Website                   Website                  Website

Southeastern
Michigan Health         0.00         4.60        0.00         5.78         0.00         6.68       0.00        6.93
Association (1)
Northrop
Grumman
Systems
                        R/NA        R/NA         R/NA         R/NA        11.00         2.64       17.50      16.44
Corporation (1)
Science
Applications
                        1.50         2.97        4.44         4.37         2.63         3.07       0.82        0.82
International
Corporation (1)
York Telecom
                        R/NA         0.57        1.00         0.06         1.00         0.10       1.00        0.32
Corporation

MedVirginia             0.79         0.79        R/NA         0.95         1.66         0.72       R/NA       R/NA

EHR Doctors (1)(2)      4.00         4.00        4.00         4.00         4.00         4.00       4.00        4.00

Regenstrief
                        R/NA         0.57        R/NA         0.78         2.50         0.78       0.58        0.58
Institute
Oregon
Community Health
                        1.20         1.66        R/NA         4.46         1.66         3.46       7.92        0.00
Information
Network, Inc.
Wright Institute (2)       2.44        2.44        2.63         2.63        2.84        2.84       2.98        2.98
R/NA = Reporting Not-Applicable
(1) – This contractor included subcontractor hours in its FTE calculations.
(2) – This contractor correctly reported FTEs on the FederalReporting.gov website.
Page 7 - The Commissioner


The contractors’ inconsistent interpretations of OMB guidance caused differing results
for all four reporting periods. Specifically, we found that

•      contractors' reported FTEs did not match contractors' calculated FTEs;

•      though contractors stated they did not submit reports (because contractors met one
       of the exclusion requirements), FederalReporting.gov showed contractors submitted
       reports indicating 0.0 FTE;

•      contractors used an incorrect number of hours worked for reasons other than the
       incorrect quarter(s) were used;

•      contractors used an incorrect number of hours in a full-time schedule for the quarter
       for reasons other than cumulative quarters were used; or

•      contractors incorrectly used cumulative hours for hours worked or hours in a full-time
       schedule.

For example, one contractor explained that FTEs were only reported in quarters when
the contractor invoiced those Federal funds. Therefore, for some quarters, the
contractor did not report FTEs. The contractor indicated that, upon further research of
the reporting guidelines, it believed this reporting method was incorrect. The contractor
believed it should have reported jobs created in each quarter regardless of invoicing.
Therefore, the contractor reported a total of jobs created during the 2nd and 3rd quarters
of FY 2011 in its next report, which was for the 4th quarter FY 2011. Per OMB
guidance, the contractor should not have included a total of jobs created for the contract
in the 4th quarter FY 2011.

In another case, a contractor stated a 40-hour workweek would be considered a normal
workweek. The contract was awarded during the last month of the quarter. Therefore,
its Quarterly Hours in a Full-Time Schedule was calculated as 160 hours. The
contractor used 1 month’s hours as its Quarterly Hours in a Full-Time Schedule. Per
OMB guidance, 13 we multiplied the 40 hours by 52 weeks to calculate 2,080 hours a
year. We divided the 2,080 hours by 4 to determine the number of hours in a full-time
schedule for the quarter equaled 520 hours.

Based on our analysis of contractors’ calculations of FTEs, we believe the contractors
made a good-faith effort to ensure complete and accurate reporting. Through our
analyses and discussions with the contractors, it appears the inconsistent reporting was
due to misinterpretations of OMB guidance. All the contractors concurred with our
re-calculations.




13
     OMB, M-10-08, supra, Part 2 § 5.3 at p. 13.
Page 8 - The Commissioner


Errors Not Detected by Quality Review

The Office of Acquisition and Grants’ (OAG) quality review process was not designed to
detect the contractors’ reporting errors we found. Although consistent with OMB’s
guidance to Federal agencies, OAG’s quality review process was not designed to
monitor jobs reported as created or retained to the extent where supporting
documentation is obtained from contractors to validate information posted on
FederalReporting.gov. OMB Memorandum M-10-08, requires that Federal agencies
establish data quality plans that articulate their data quality review process to, at a
minimum, focus on significant reporting errors and material omissions. 14 OAG
implemented procedures requiring that contracting officers review contractor reports at
FederalReporting.gov for consistency with award information, significant errors, and
material omissions. Contracting officers review data posted to FederalReporting.gov for
significant errors. 15 OAG’s procedures for detecting significant errors are not meant to
require a major research effort. 16 Rather, OAG reviews seek to identify data that are
not logical when compared to other data and/or the contract award. 17 According to
OMB guidance. the data fields that are of major concern for significant errors are
Federal amount of the award, Federal award number, recipient name, and number of
jobs created or retained. 18

Contracting officers should continue communicating with Recovery Act contractors
emphasizing that jobs created or retained are to be reported as hours worked and paid
for with Recovery Act funds consistent with the methodology set forth in OMB guidance,
unless the guidance is modified to require otherwise. Additionally, OAG should address
these issues by enhancing its guidance issued to Recovery Act contractors. 19 This
should help ensure Recovery Act contractors understand OMB reporting requirements
with attention to reporting jobs created or retained. Finally, given the number of
reporting errors we discovered, OAG should consider periodically validating the jobs
reported by Recovery Act contractors.


14
     OMB, M-10-08, supra, Part 1 § 3 at p. 4.
15
  OAG Flash Notice, January 19, 2011, defines significant errors as data that do not appear to be
accurate. For example, recipient names that do not match what is recorded in SSA’s management
systems.
16
     OAG Flash Notice, January 19, 2011, p. 11.
17
  Id. According to OAG’s Flash Notice, an example of a “significant error” includes obvious errors, such
as a contractor who reports $1 million in invoices on a $100,000 award. Other examples include a
contractor incorrectly selecting “fully complete” to describe an incomplete project or a contractor reports
the number of jobs created and retained cumulatively as 100,000 yet the contract award/obligation
amount was for a relatively small dollar amount, such as $100,000.
18
     OMB, M-10-08, supra, Part 1 § 3.1. at p. 4.
19
   In our October 2009 report, American Recovery and Reinvestment Act of 2009 Data Quality Reviews
(A-15-10-21045), SSA stated that if OAG’s reviews of the reports find common errors, it will address the
issue.
Page 9 - The Commissioner


OAG informed us that it intended to comply with the Matters for Consideration section of
in our 2010 report. 20 However, OAG indicated that it did not address the Matters for
Consideration in its January 2011 Flash Notice 05 09-01.04 because of OAG staff
turnover and the introduction of OMB Memorandum M-10-34. OAG intends to review
the contracts awarded using Recovery Act funds to determine whether the contracts are
still active. If so, OAG will consider issuing guidance to contracting officers addressing
our considerations.

CONCLUSION
Most of the SSA contractors we reviewed reported jobs created or retained inconsistent
with OMB guidance. Differing interpretations of the OMB guidance for job count
calculations appeared to be the reason for the inconsistencies. OAG’s quality review
process, although consistent with certain aspects of OMB’s guidance to Federal
agencies, is not designed to monitor jobs reported as created or retained to an extent
where supporting documentation is obtained from contractors to validate information
posted on FederalReporting.gov. Therefore, it is unlikely that OAG would have
detected the reporting inconsistencies we identified.

We are not making recommendations because reporting under these criteria will expire.
On September 15, 2011, 21 OMB directed Federal agencies to accelerate the spending
of remaining Recovery Act funds. OMB also directed them to take steps to complete
Recovery Act projects by September 30, 2013.

AGENCY COMMENTS
The Agency agreed with the report’s findings and conclusions and had no comments
(see Appendix C).




                                             Patrick P. O’Carroll, Jr.




20
  SSA OIG, Contractors’ Reporting of Jobs Created Using American Recovery and Reinvestment Act
Dollars (A-15-10-21096) July 2010.
21
  OMB Memorandum M-11-34, Accelerating Spending of Remaining Funds from the American Recovery
and Reinvestment Act for Discretionary Grant Program, at p 2.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
 C.F.R.         Code of Federal Regulations

 FAR            Federal Acquisition Regulation

 FAQ            Frequently Asked Questions

 FTE            Full-Time Equivalent

 FY             Fiscal Year

 GAO            Government Accountability Office

 OAG            Office of Acquisition and Grants

 OIG            Office of the Inspector General

 OMB            Office of Management and Budget

 Pub. L. No.    Public Law Number

 Recovery Act   American Recovery and Reinvestment Act of 2009

 SSA            Social Security Administration

 U.S.C.         United States Code
                                                                      Appendix B

Scope and Methodology
Our objective was to verify the number of jobs reported as created or retained by
contractors who provided the Social Security Administration goods and/or services
funded with American Recovery and Reinvestment Act of 2009 (Recovery Act) dollars in
Fiscal Year 2011 for the quarters ended December 31, 2010, March 31, 2011,
June 30, 2011, and September 30, 2011. We accomplished our objective in three
steps.

First, we determined the criteria that provide guidance on how jobs created or retained
are calculated. We determined that the Office of Management and Budget (OMB) and
Federal Acquisition Regulation (FAR) provided guidance for Federal agencies and
contractors to follow to calculate the number of jobs created or retained and for Federal
agencies to effectively review the quality of data submitted by contractors. The
guidance is outlined in the following.

•   OMB Memorandum M-09-21, Implementing Guidance for the Reports on Use of
    Funds Pursuant to the American Recovery and Reinvestment Act of 2009
    (June 22, 2009).

•   FAR 52.204-11 American Recovery and Reinvestment Act - Reporting
    Requirements.

•   Recovery FAQs for Federal Contractors on Reporting – Reporting/Data Element
    FAQs #15 (updated as of September 30, 2009, as of December 31, 2009, and as of
    July 2, 2010).

•   OMB Memorandum M-10-08, Updated Guidance on the American Recovery and
    Reinvestment Act – Data Quality, Non-Reporting Recipients, and Reporting of Job
    Estimates (December 18, 2009).

•   OMB Memorandum M-10-34, Updated Guidance on the American Recovery and
    Reinvestment Act (September 24, 2010).

Second, we requested that Recovery Act recipients who provided goods and/or services
to the Social Security Administration provide us the methodology and supporting
documentation used to calculate the number of jobs reported as created or retained on
FederalReporting.gov for the quarters ended December 31, 2010, March 31, 2011,
June 30, 2011, and September 30, 2011.




                                          B-1
Third, based on the methodology and supporting documentation provided by the
contractors, we recalculated jobs created or retained based on the OMB guidance. 22
These OMB documents give guidance to the prime Federal contractor to determine the
"Number of Jobs" that will be reported on FederalReporting.gov. Full-time equivalents
(FTE) are calculated using Recovery Act hours worked divided by hours in a full-time
schedule.

OMB Memorandum M-10-08 and FAQs dated December 31, 2009 required that FTEs
be calculated on a non-cumulative basis; thus, non-cumulative Recovery Act hours
worked are divided by non-cumulative hours in a full-time schedule. See an illustration
of the non-cumulative method in Table B-1.

                                                 Table B-1

                 Period                  4th Qtr     1st Qtr       2nd Qtr    3rd Qtr    4th Qtr    1st Qtr

Full-Time Schedule (denominator)              520          520         520        520        520         520
Full-Time 23 Employee 1                       520          520         520        520        520         520
Full-Time Employee 2                          520          520         520        520        520         520
Part-Time Employee (half time)                260          260         260        260        260         260
Temporary Employee (340 hours)                   0             0       130        130         80              0
Total Hours Worked (numerator)              1,300      1,300         1,430       1,430     1,380      1,300
"Number of Jobs" Reported by
Federal Contractor in
                                             2.50          2.50        2.75       2.75       2.65        2.50
FederalReporting.gov by
Reporting Quarter


Seventeen contractors reported contract performance related to work for SSA on the
FederalReporting.gov Website for the quarters ended December 31, 2010,
March 31, 2011, June 30, 2011, and September 30, 2011. To accomplish our objective,
we requested and obtained methodology and supporting documentation from nine SSA
contractors who reported jobs created. Because of the restrictions of the Paperwork
Reduction Act, 24 we limited our requests for supporting documentation concerning the
number of jobs created or retained to nine contractors. The Paperwork Reduction Act
limits identical requests to less than 10 without obtaining prior approval from OMB.




22
  OMB, M-09-21, supra, OMB, M-10-08, supra, OMB, M-10-34, supra, and Frequently Asked Questions
on OMB’s website http://www.whitehouse.gov/omb/recovery_faqs_contractors/
23
     In this illustration, we consider an employee working a 40-hour workweek as a full-time employee.
24
     Paperwork Reduction Act, 44 U.S.C. 3501 et seq.


                                                     B-2
We performed our review in Baltimore, Maryland, from August to November 2011. We
conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspections. Based on the tests
performed, we concluded the data are sufficiently reliable to support the findings and
conclusions of the review.




                                         B-3
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      March 14, 2012                                                          Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Contractors’ Reporting of Jobs Created or
           Retained Using American Recovery and Reinvestment Act Dollars in Fiscal Year 2011”
           (A-15-12-11214)—INFORMATION

           Thank you for the opportunity to review the draft report. We agree with the report’s findings and
           conclusions and have no comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Teresa Rojas at (410) 966-6784.




                                                          C-1
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division (410) 966-9081

   Mark Meehan, Audit Manager, (410) 966-7147

Acknowledgments

In addition to those named above:

   Jackie Patel, Auditor-in-Charge

   Ronald Anderson, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-15-12-11214.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
